U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

February 1, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Northern California Small Business Assistant, Inc. v. Commissioner of
Internal Revenue, S.Ct. No. 20-1031

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 25,
2021, and placed on the docket on January 28, 2021. The government’s response is due on
March 1, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 31, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1031
NORTHERN CALIFORNIA SMALL BUSINESS
ASSISTANTS, INC.
COMMISSIONER OF INTERNAL REVENUE

T. KEITH FOGG
LEGAL SERVICES CENTER OF HARVARD
LAW SCHOOL
122 BOYLSTON STREET
JAMAICA PLAIN, MA 02130
617-522-3003
KFOGG@LAW.HARVARD.EDU
DOUGLAS LELAND YOUMANS
WAGNER KIRKMAN BLAINE KLOMPARENS &
YOUMANS, LLP
10640 MATHER BLVD.
SUITE #200
MATHER, CA 95655
916-920-5286
DYOUMANS@WKBLAW.COM

